August 26, 2021

DIRECT DIAL

216.696.4235 | dustin.rawlin@tuckerellis.com

VIA ELECTRONIC FILING
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-0001
sharris@supremecourt.gov
Re: Second motion to extend time to respond to petition for writ of certiorari in
Brittany Billetts, et al. v. Mentor Worldwide LLC
S. Ct. Case No. 21-26
Dear Sir:
I represent Respondent, Mentor Worldwide LLC (“Mentor”), in the above-referenced
matter. The Petition for Writ of Certiorari in the above-referenced entitled case was filed on
July 6, 2021, and docketed July 9, 2021. Mentor’s brief in opposition to the Petition for Writ of
Certiorari was originally due on or before August 9, 2021. Pursuant to Rule 30.4 of the United
States Supreme Court, Mentor requested a thirty-day extension of time to file a brief in opposition
to the Petition for Writ of Certiorari, which was granted, extending Mentor’s time to file its brief
in opposition until September 8, 2021. Pursuant to Rule 30.4, I am hereby requesting an
additional thirty (30) day extension of time to file a brief in opposition to the Petition for Writ of
Certiorari, until Friday, October 8, 2021. Good cause exists for this second request.
I am counsel of record in the above referenced matter. My colleague and co-counsel on this
matter, Jeffrey C. Sindelar Jr., has had family members adversely affected by Covid-19 during
the past month. Mr. Sindelar and I also have both been busy attending to other demands of our
practice. I have consulted for counsel for petitioners, Mr. Anthony Anderson Benton Dogali, and
he does not oppose Mentor’s request for an additional extension.
Accordingly, I am respectfully requesting a second thirty (30) day extension of time, until
October 8, 2021, to file a brief in opposition to the Petition for a Writ of Certiorari.
Thank you for your time and attention to the foregoing.

5267952.1

Second motion to extend time to respond to petition for writ of certiorari in
Brittany Billetts, et al. v. Mentor Worldwide LLC
S. Ct. Case No. 21-26
August 26, 2021
Page 2

Respectfully submitted,
TUCKER ELLIS LLP
s/Dustin B. Rawlin
Dustin B. Rawlin
Attorney for Respondent
Mentor Worldwide LLC
cc: Anthony Anderson Benton Dogali (Counsel of Record for Petitioners)
DBR:jcs

5267952.1

